No. 19-956
In the

Supreme Court of the United States
__________________

DONALD E. CRAIG, ET AL.,
Petitioners,
v.
JANET TURNER O’KELLEY, INDIVIDUALLY AND AS
PERSONAL REPRESENTATIVE OF THE ESTATE OF JOHN
HARLEY TURNER, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

__________________

BRIEF OF AMICUS CURIAE INTERNATIONAL
MUNICIPAL LAWYERS ASSOCIATION IN
SUPPORT OF PETITION FOR WRIT OF
CERTIORARI
__________________
CHARLES W. THOMPSON
CHRISTOPHER D. BALCH
AMANDA KELLAR KARRAS
Counsel of Record
BALCH LAW GROUP
ERICH EISELT
830 Glenwood Ave., SE
INTERNATIONAL MUNICIPAL
Suite 510-220
LAWYERS ASSOCIATION
Atlanta, GA 30316
51 Monroe Street, Suite 404
(404) 963-0045
Rockville, MD 20850
chris@balchlawgroup.com
(202) 466-5424
akellar@imla.org
Counsel for Amicus Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I. THE DECISION BY THE ELEVENTH CIRCUIT
IGNORED THIS COURT’S CLEAR PRECEDENT ON
QUALIFIED IMMUNITY AND THIS COURT SHOULD
GRANT CERTIORARI AND SUMMARILY REVERSE . . . 5
A. The Eleventh Circuit Should be Reversed
Because it Conducted its Analysis of “Clearly
Established” Law at Too High a Level of
Generality . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. The Circuit Court Applied the Provocation
Rule Rejected by this Court in County of Los
Angeles v. Mendez . . . . . . . . . . . . . . . . . . . . . 10
C. The Eleventh Circuit’s Failure to Consider
the Reasonableness of the Officers’ Conduct
under Tennessee v. Garner and Graham v.
Connor Demands Reversal . . . . . . . . . . . . . . 12
II. IN THE ALTERNATIVE, THIS COURT SHOULD
GRANT CERTIORARI BECAUSE THE ELEVENTH
C IRCUIT ’ S D ETERMINATION OF “C LEARLY
ESTABLISHED” NINE DAYS AFTER ITS ORIGINAL
DECISION IGNORES THE PRACTICAL REALITIES OF
LOCAL GOVERNMENT LAW ENFORCEMENT . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

ii
TABLE OF AUTHORITIES
CASES
Affiliated Capital Corp. v. City of Houston,
735 F.2d 1555 (5th Cir. 1984). . . . . . . . . . . . . . . 16
Arebaugh v. Dalton,
730 F.2d 970 (4th Cir. 1984). . . . . . . . . . . . . . . . 16
Arizona v. Gant,
556 U.S. 332 (2009). . . . . . . . . . . . . . . . . . . . . . . 15
Atwater v. City of Lago Vista,
532 U.S. 318 (2001). . . . . . . . . . . . . . . . . . . . . . . 14
Brosseau v. Haugen,
543 U.S. 194 (2004). . . . . . . . . . . . . . . . . . . . . . . . 5
Bryan v. United States,
919 F.3d 356 (3d Cir. 2019) . . . . . . . . . . . . . 16, 19
Carroll v. United States,
267 U.S. 132 (1925). . . . . . . . . . . . . . . . . . . . 12, 21
City & Cty. of S.F. v. Sheehan,
575 U.S. 600 135 S. Ct. 1765 (2015). . . . . . . . 9, 10
County of Los Angeles v. Mendez,
137 S. Ct. 1538 (2017). . . . . . . . . . . . . . . . 3, 10, 11
Dist. of Columbia v. Wesby,
138 S. Ct. 577 (2018). . . . . . . . . . . . . . . . . . . . . . . 3
Florida v. Jardines,
569 U.S. 1 (2013). . . . . . . . . . . . . . . . . . . . . . . . . 13
Gerstein v. Pugh,
420 U.S. 103 (1975). . . . . . . . . . . . . . . . . . . . . . . 13

iii
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . 3, 10, 12
Harlow v. Fitzgerald,
457 U.S. 800 (1984). . . . . . . . . . . . . . . . . . . . . . 2, 4
Hope v. Pelzer,
536 U.S. 730 (2002). . . . . . . . . . . . . . . . . . . . . . . . 5
Kentucky v. King,
563 U.S. 452 (2011). . . . . . . . . . . . . . . . . . . . . . . 15
Kisela v. Hughes,
138 S. Ct. 1138 (2018). . . . . . . . . . . . . . . . . . . 5, 17
Malley v. Briggs,
475 U.S. 335 (1986). . . . . . . . . . . . . . . . . . . . . . . . 2
Martinez v. City of Clovis,
943 F.3d 1260 (9th Cir. 2019). . . . . . . . . . . . . . . 21
Mendez v. County of Los Angeles,
813 F.3d 1178 (9th Cir. 2016). . . . . . . . . . . . 10, 11
Moore v. Pederson,
806 F.3d 1036 (11th Cir. 2015). . . . . . . . . . passim
Mullinax v. Luna,
136 S. Ct. 305 (2015). . . . . . . . . . . . . . . . . . . . 9, 17
New York v. Belton,
453 U.S. 454 (1981). . . . . . . . . . . . . . . . . . . . . . . 15
O’Kelley v. Craig,
781 F. App’x 888 (11th Cir. 2019) . . . . . . . passim
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . . . . 9, 15

iv
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . . . . . . . . 9
Shumpert v. City of Tupelo,
905 F.3d 310 (5th Cir. 2018). . . . . . . . . . . . . . . . 21
Tennessee v. Garner,
471 U.S. 1 (1985). . . . . . . . . . . . . . . . . . . . . . 12, 14
Tolan v. Cotton,
572 U.S. 650 (2014). . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Watson,
423 U.S. 411 (1976). . . . . . . . . . . . . . . . . . . . . . . 12
STATUTES
Ga. Code Ann. § 16-5-21. . . . . . . . . . . . . . . . . . . . . . . 7
Ga. Code Ann. § 16-11-37. . . . . . . . . . . . . . . . . . . . 7, 8
OTHER AUTHORITIES
“Georgia School District Reverses Its Decision on
Transgender Bathroom Policy After Receiving
Death Threats,” Slate.com, Oct. 17, 2019,
https://slate.com/news-and-politics/2019/10/georg
ia-school-transgender-bathroom-policy-deaththreats.html . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
“Number of Municipal Governments & Population
Distribution,” https://www.nlc.org/number-ofmunicipal-governments-population-distribution
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

v
Brian A. Reaves, Local Police Departments, 2013:
Personnel, Policies, and Practices, U.S.
Department of Justice Office of Justice
Programs Bureau of Justice Statistics, Table 3,
available at: http://bit.ly/2wfzZXu . . . . . . . . . . . . 4
Seattle Police Department Manual, Title 6-”Arrestssearch and seizure,” available at www.seattle.go
v/police-manual/title-6---arrests-search-and-seiz
ure/6180---searches-general . . . . . . . . . . . . . . . . 22
United States Executive Office of the President,
“Border Security-2020 Budget Fact Sheet,”
https://www.whitehouse.gov/wp-content/uploads/
2019/03/FY20-Fact-Sheet_Immigration-BorderSecurity_FINAL.pdf . . . . . . . . . . . . . . . . . . . . . . 19
www.pickensgasheriff.com/wp-content/uploads/
2020/02/December-2019-Financials.pdf. . . . . . . 20

1
INTEREST OF AMICUS CURIAE1
The International Municipal Lawyers Association
(“IMLA”) has been an advocate and resource for local
government attorneys since 1935. Owned solely by its
more than 2,500 members, IMLA serves as an
international clearinghouse for legal information and
cooperation on municipal legal matters. IMLA’s
mission is to advance the responsible development of
municipal law through education and advocacy by
providing the collective viewpoint of local governments
around the country on legal issues before the Supreme
Court of the United States, the United States Courts of
Appeals, and State supreme and appellate courts.
Members of IMLA regularly advise municipalities
and their law enforcement agencies on issues
pertaining to the Fourth Amendment and qualified
immunity. Given the Eleventh Circuit’s unrealistic
ruling that effectively requires IMLA’s members,
regardless of their size and resources, to immediately
and continuously review case law pertaining to law
enforcement and provide up to the minute training and
policy guidance to their police departments, IMLA has
a strong interest in this dispute.

1

No counsel for a party authored this brief in whole or in part, and
no such counsel or party made a monetary contribution intended
to fund the preparation or submission of this brief. No person other
than amici curiae, their members, or their counsel made a
monetary contribution to its preparation or submission. IMLA has
obtained the written consent of all parties to file this Brief
pursuant to Supreme Court Rules 37.2(a) and 37.3(a). Notice of the
intent to file this Brief was sent to all parties on February 20,
2020.

2
IMLAs is equally concerned with the need to protect
police officers charged with enforcing the nation’s laws
and ordinances from the second-guessing of their
reasonable actions and choices in the heat of a swiftly
evolving situations. IMLA is committed to preserving
qualified immunity from further erosion as it ensures
that reasonable and well-trained officers can perform
their duties without risking the financial, reputational,
and administrative burdens associated with defending
a civil rights lawsuit. As a representative of local
governments committed to effective and responsible
policing and committed to providing training for police
officers, IMLA urges this Court to grant certiorari or in
the alternative, to summarily reverse the Court of
Appeals’ decision.
SUMMARY OF THE ARGUMENT
The hallmark of qualified immunity is fair notice to
public officials that “what they are doing in the
circumstances” violates the law. Harlow v. Fitzgerald,
457 U.S. 800 (1984); Malley v. Briggs, 475 U.S. 335
(1986). In this case, the Eleventh Circuit held for the
first time that a panel decision, Moore v. Pederson, 806
F.3d 1036, 1061 (11th Cir. 2015), with significant
factual dissimilarities to those at issue here, decided a
mere nine days prior the conduct in question, was a
sufficient amount of time to provide notice to law
enforcement officers in rural Georgia that seeking to
arrest a suspect within the curtilage of his home
without a warrant who they had probable cause to
believe had committed a violent felony was
unconstitutional. This Court should summarily reverse
the lower court based on its failure to follow this

3
Court’s precedent and repeated admonitions that lower
courts should not “define clearly established law at a
high level of generality, since doing so avoids the
crucial question whether the official acted reasonably
in the particular circumstances that he or she faced.”
Dist. of Columbia v. Wesby, 138 S. Ct. 577, 590 (2018).
Compounding its errors, the Eleventh Circuit also
ignored this Court’s opinion in County of Los Angeles v.
Mendez, 137 S. Ct. 1538 (2017), in which this Court
held that a single alleged constitutional violation will
not create liability for some other subsequent alleged
violation under what the Ninth Circuit dubbed, the
“provocation rule.” Here the Eleventh Circuit found
these officers could be held liable for their use of force
which caused the death of Mr. Turner without
analyzing whether their response to his opening fire on
them was objectively reasonable under Graham v.
Connor, 490 U.S. 386, 388 (1989). Indeed, the court
wholly fails to even cite to Graham and instead entirely
focuses the question on whether the initial trespass
onto the decedent’s property seeking to arrest him was
lawful. The court omits from its analysis the fact that
Mr. Harley shot his firearm at the officers, which
prompted them to open fire and kill him. This is
precisely the “provocation rule” that this Court rejected
in Mendez and justifies this Court summarily reversing
the Eleventh Circuit for reconsideration under the
proper legal standard.
Similarly, the Eleventh Circuit failed to properly
analyze whether the conduct of these officers was
lawful. These officers possessed probable cause to
investigate either of two violent crimes under Georgia

4
law. This Court’s precedent makes clear that officers
have the authority to conduct an investigation when
they have probable cause. On the basis of the
complaint, these officers acted in an objectively
reasonable manner, justifying this Court reversing the
Eleventh Circuit.
In addition to the stark departure from this Court’s
clear precedent, public policy supports the application
of qualified immunity to this case. According to the
U.S. Department of Justice, approximately 35% of law
enforcement officers serve communities of less than
50,000 citizens.2 Police departments are stretched to
the breaking point and instantaneous dissemination of
legal cases is entirely unrealistic. The unprecedented
and unreasonable conclusion by the Eleventh Circuit
that a panel decision of that court “clearly established”
the law immediately after it was decided flies in the
face of this Court’s decision in Harlow, squarely splits
from the Third and Fifth Circuits, and is entirely
divorced from the realities of providing training and
education to law enforcement in the nation’s small and
rural communities. Amicus agrees with the petitioner
that this Court should grant certiorari to provide
clarity as to how much notice is required to clearly
establish the law and submits that additional policy
concerns underscore the need for this Court’s
intervention.

2

See Brian A. Reaves, Local Police Departments, 2013: Personnel,
Policies, and Practices, U.S. Department of Justice Office of Justice
Programs Bureau of Justice Statistics, Table 3, available at:
http://bit.ly/2wfzZXu (last visited Feb. 27, 2020).

5
ARGUMENT
I. THE DECISION BY THE ELEVENTH CIRCUIT
IGNORED THIS COURT’S CLEAR PRECEDENT ON
QUALIFIED IMMUNITY AND THIS COURT SHOULD
GRANT CERTIORARI AND SUMMARILY REVERSE
A. The Eleventh Circuit Should be Reversed
Because it Conducted its Analysis of
“Clearly Established” Law at Too High a
Level of Generality
In stripping these officers of the protections of
qualified immunity, the Eleventh Circuit relied on
another panel decision that was only nine days old at
the time these officers encountered Mr. Turner. The
situation faced by these officers is so materially
different from that addressed in Moore v. Pederson, 806
F.3d 1036 (11th Cir. 2015), however, that it could not
have provided fair warning to them that the law
governing their conduct was “clearly established.”
Kisela v. Hughes, 138 S. Ct. 1138, 1152 (2018);
Brosseau v. Haugen, 543 U.S. 194, 198 (2004); Hope v.
Pelzer, 536 U.S. 730, 731 (2002). A closer review of
Moore reveals the multiple material factual
dissimilarities between that case and the situation
these officers faced, and therefore the reversible error
in the Eleventh Circuit’s analysis.
First, the officer in Moore was confronting a nonviolent situation—he had responded to a call about a
parking lot altercation which the caller explicitly
characterized as non-violent. Moore, 806 F.3d at 1040.
In contrast, the Pickens County officers were
responding to a threat of violence by an unseen agitator

6
that hunters lawfully on adjoining property were
trespassing and would suffer bodily harm. O’Kelley v.
Craig, 781 F. App’x 888, 891 (11th Cir. 2019).
Second, in Moore, the person who opened the door
after the officer knocked was not armed, whether with
a firearm or anything else—he was standing in arm’s
reach of the officer, wearing nothing more than a towel,
and remained at the doorway during the entire dialog.
Moore, 806 F.3d at 1040. In contrast, the Pickens
County officers confronted a man some distance away,
brandishing a pistol, who sometimes carried the pistol
in his hand, who refused to put his gun down despite
repeated requests by law enforcement to do so, and who
disappeared into a residence and reemerged, at one
point also carrying a flashlight. Craig, 781 F. App’x
891-92. There was no way to know what other
weapons he might have been secreting. Id.
Third, the Moore officer instituted an arrest shortly
after arriving, without any specific incident that
required action—there was no evidence of the situation
spiraling out of control and no imminent danger to the
officer or anyone else. Moore, 806 F.3d at 1040. In
contrast, the Pickens County officers had already
expended approximately 30 minutes simply trying to
get an increasingly agitated and obviously
unpredictable suspect to drop his weapon, and had
placed an unarmed colleague directly in his line of fire
in an effort to defuse the situation. Craig, 781 F. App’x
892.
Fourth, the officer in Moore had no arguable
probably cause to arrest, or even to conduct a Terry
stop—he was responding to allegations of a now-ended

7
parking lot argument. Moore, 806 F.3d at 1040. The
grounds for arrest he incorrectly relied upon arose only
after the man in the doorway was noncompliant. Id. In
contrast, the Pickens County officers were responding
to an armed, unstable, potentially dangerous suspect
who had already committed various violations of
Georgia criminal law and had refused repeated orders
to put his weapon down. Craig, 781 F. App’x 891-92.3
3

Ga. Code Ann. § 16-5-21 (aggravated assault) provides, in
pertinent part:
(a) A person commits the offense of aggravated assault
when he or she assaults:
(1) With intent to murder, to rape, or to rob;
(2) With a deadly weapon or with any object, device, or
instrument which, when used offensively against a person,
is likely to or actually does result in serious bodily injury;
(3) With any object, device, or instrument which, when
used offensively against a person, is likely to or actually
does result in strangulation; or
(4) A person or persons without legal justification by
discharging a firearm from within a motor vehicle toward
a person or persons.
Ga. Code Ann. § 16-11-37 (terroristic threats) provides in pertinent
part:
(b)(1) A person commits the offense of a terroristic threat
when he or she threatens to:
(A) Commit any crime of violence;
(B) Release any hazardous substance; or
(C) Burn or damage property.
(2) Such terroristic threat shall be made:
(A) With the purpose of terrorizing another;
(B) With the purpose of causing the evacuation of a
building, place of assembly, or facility of public
transportation;
(C) With the purpose of otherwise causing serious
public inconvenience; or

8
Fifth, the Moore officer physically reached into the
residence to handcuff the suspect, again on
questionable grounds. Moore, 806 F.3d at 1040. In
contrast, the Pickens County officers simply crossed
into the edge of Mr. Turner’s yard and never moved
beyond the curtilage. Craig, 781 F. App’x 892.
Finally, and most instructive, the Court in Moore
relied on its own precedent—premised on virtually
identical legal indicia--to reach its conclusion that
the officer had transgressed “clearly established” law:
[I]n McClish v. Nugent, 483 F.3d 1231 (11th Cir.
2007), we held that an officer who, without a
warrant, or probable cause along with exigent
circumstances or consent, “reached into [a]
house, grabbed [the plaintiff], and forcibly pulled
him out onto the porch” in order to arrest him,
violated the plaintiff’s Fourth Amendment
rights.
Moore, 803 F.3d at 1043-1044.
To reiterate the often-repeated maxim, “facts
matter.” Against this backdrop, it is remarkable that
(D) In reckless disregard of the risk of causing the
terror, evacuation, or inconvenience described in
subparagraph (A), (B), or (C) of this paragraph.
…
(d)(1) A person convicted of the offense of a terroristic
threat shall be punished as a misdemeanor; provided,
however, that if the threat suggested the death of the
threatened individual, the person convicted shall be guilty
of a felony and shall be punished by a fine of not more than
$1,000.00, imprisonment for not less than one nor more
than five years, or both.

9
the Eleventh Circuit could contort Moore into a “clearly
established” rule applicable to the Pickens County
officers (even if nine days was enough notice to the
officers). Mullinax v. Luna, 136 S. Ct. 305, 308 (2015);
Pearson v. Callahan, 555 U.S. 223, 231 (2009).
This Court has repeatedly admonished lower courts
not to seek to “define the clearly established at a high
level of generality.” Mullinax, 136 S. Ct. at 308.
Specificity is especially important in the Fourth
Amendment context because “it is sometimes difficult
for an officer to determine how the relevant legal
doctrine [may] apply to the factual situation the officer
confronts.” Saucier v. Katz, 533 U.S. 194, 205 (2001).
“The salient question … is whether the state of the law
at the time of an incident provided ‘fair warning’ to the
defendants ‘that their alleged conduct was
unconstitutional.’” Tolan v. Cotton, 572 U.S. 650, 656
(2014) (quoting Hope, 536 U.S. at 741)).4 The Eleventh
Circuit’s fundamental error was to take a factually
distinguishable case and apply it at a high level of
generality without regard to the particular
circumstances faced by the officers in the moment.
Given the societal interests in preserving qualified
immunity, that error justifies the Court granting
certiorari and summarily reversing. See City & Cty. of
4

The factual dissimilarities between the two cases underscore the
need for more time for proper legal analysis of case law before a
case can be considered “clearly established” such that qualified
immunity would not apply. Even assuming arguendo that these
facts were similar enough to “clearly establish” the law for the
purposes of qualified immunity (which they are not), local
government attorneys would then need time to disseminate that
information to thousands of police officers in the Eleventh Circuit.

10
S.F. v. Sheehan, 575 U.S. 600 n.3, 135 S. Ct. 1765, 1774
(2015) (noting because of the importance of qualified
immunity “to society as a whole… the Court often
corrects lower courts when they wrongly subject
individual officers to liability.”)
B. The Circuit Court Applied the Provocation
Rule Rejected by this Court in County of
Los Angeles v. Mendez
In County of Los Angeles v. Mendez, 137 S. Ct. 1539
(2017), this Court unanimously rejected the Ninth
Circuit’s “provocation rule.” As described by this Court,
the provocation rule applies to render the officer’s use
of force unreasonable as a matter of law when “the
officer intentionally or recklessly provoked a violent
response” and “that provocation is an independent
constitutional violation.” 137 S. Ct. at 1545. Under this
now-invalidated rule, a reasonable use of force by the
officers became unreasonable because of an earlier
Fourth Amendment violation. Mendez v. County of Los
Angeles, 813 F.3d 1178, 1193 (9th Cir. 2016). Without
so much as a nod in the direction of this Court’s
precedent, the Eleventh Circuit committed the same
error as the Ninth Circuit, two years after this Court
had rejected this rule.
It is undisputed that Mr. Turner drew his pistol and
fired at officers causing them to return fire. Craig, 781
F. App’x at 892. Similarly, it is undisputed that
Tennessee v. Garner authorizes police officers to defend
themselves when fired upon. 490 U.S. at 11-12. Mr.
Turner’s conduct in drawing and returning his pistol to
its holster, refusing to obey officer’s commands to
disarm, acting erratically, and having threatened

11
people in the woods all justified the officers’ continued
efforts to control the scene and disarm a potentially
dangerous person. The Eleventh Circuit’s conclusion
that the officers’ alleged unjustified intrusion beyond
the fence and gate created potential liability for the
death of Mr. Turner who opened fire on the officers
with his pistol is the same error that the Ninth Circuit
had made in Mendez. As this Court recognized, officers
may have committed a Fourth Amendment violation by
entering the shack at the back of the house without a
warrant, but when they observed Mendez holding the
BB gun, they acted reasonably in firing their weapons.
Mendez, 137 S. Ct. at 1547. As Justice Alito simply put
it, “[a] different Fourth Amendment violation cannot
transform a later, reasonable use of force into an
unreasonable seizure.” Id. at 1544.
In this case, the Eleventh Circuit held that because
the officers allegedly improperly crossed into the
curtilage of the home to conduct an investigation of a
crime, the officers were liable for all acts, including the
shooting of Mr. Turner that was indisputably a
justified use of force given that he shot at the officers
after they tried to disarm him with non-lethal force.
That conclusion cannot stand in light of Mendez, and
this Court should summarily reverse and require the
Eleventh Circuit to reconsider its analysis under the
proper constitutional standard.

12
C. The Eleventh Circuit’s Failure to Consider
the Reasonableness of the Officers’
Conduct under Tennessee v. Garner and
Graham v. Connor Demands Reversal
In Tennessee v. Garner, 471 U.S. 1 (1985), this
Court addressed the circumstances under which the
use of deadly force by law enforcement officers was
justified. The Court held that the use of deadly force
would be authorized to “seize” a person under the
Fourth Amendment so long as officers possessed a
reasonable belief that the subject had committed a
crime “involving the infliction or threatened infliction
of serious physical harm.” Garner, 471 U.S. 11-12.
Whether the use of force is appropriate is determined
by the Fourth Amendment’s objectively reasonableness
standard. Graham v. Connor, 490 U.S. 386, 388 (1989).
The Eleventh Circuit took no notice of Garner or
Graham, failing to even mention either in passing,
while denying these officers qualified immunity for this
encounter with Mr. Turner that ultimately led to Mr.
Turner’s death.
It should be beyond dispute that a police officer may
seize a person if he has probable cause to believe that
person committed a crime. United States v. Watson, 423
U.S. 411 (1976); Carroll v. United States, 267 U.S. 132,
154 (1925). As the Court articulated in Watson, “[t]he
necessary inquiry, therefore, is not whether there was
a warrant or whether there was time to get one, but
whether there was probable cause for the arrest.”
Watson, 423 U.S. at 417. This Court has recognized
that always requiring a warrant “would constitute an
intolerable handicap for legitimate law enforcement.”

13
Gerstein v. Pugh, 420 U.S. 103, 113 (1975). Here, there
is ample reason admitted in Plaintiffs’ complaint and
relied upon by the Eleventh Circuit to find probable
cause for the arrest of Mr. Turner.
The Eleventh Circuit relied heavily on language
from this Court’s opinion in Florida v. Jardines, 569
U.S. 1 (2013), that the home is a first among equals for
purposes of Fourth Amendment analysis. Craig, 781
F. App’x at 894. In Jardines, there is no indication that
the officers possessed actual (much less arguable)
probable cause that a crime had been or was actively
being committed within the residence. They possessed
merely an “unverified tip” that marijuana was being
grown at the residence. Jardines, 569 U.S. at 3. Based
on the tip alone, the officers took a drug sniffing dog
onto the porch of the residence and sought to determine
if there was the odor of marijuana present. Id. at 3-4.
When the dog alerted, officers sought and obtained a
warrant and a subsequent search pursuant to that
warrant discovered growing marijuana plants. Id. at
4. Neither those facts, nor this Court’s analysis,
justifies the Eleventh Circuit’s conclusion in this case.
Indeed, as the Court recognized in Jardines, an officer
may approach a home and knock because any citizen
can do the same thing. Id. at 8.
These officers
approached the gate and sought to speak with Mr.
Turner. Craig, 781 F. App’x at 891-92. Even
possessing probable cause, the officers respected the
gate until Turner repeatedly resisted their instructions
to disarm so they could safely speak with him. Id.
Where the lower court deviated from this Court’s
well-worn Fourth Amendment jurisprudence was to

14
conclude, based on the complaint before them, that
officers who received a credible complaint, identified
the subject of that complaint, observed the subject to be
armed and who refused officers’ repeated commands to
disarm, and observed the subject to be acting
erratically and aggressively against perceived
“trespassers”5 could not be lawfully arrested merely
because he was behind a locked gate. That has never
been the law as articulated by this Court. Id. This
Court’s jurisprudence demonstrates that even in the
absence of clear probable cause (which was not the case
here) a seizure is lawful when there is a palpable
threat to the officers or the community. Garner, 471
U.S. at 8-9 (“[T]he question [is] whether the totality of
the circumstances justified a particular sort of search
or seizure.”)
Further undermining the Eleventh Circuit’s
analysis, in Atwater v. City of Lago Vista, 532 U.S. 318
(2001), this Court held that a custodial arrest based on
probable cause that a nonviolent misdemeanor has
occurred is justified without a warrant even when the
crime for which the person was arrested carries no
possibility of jail time. Atwater, 532 U.S. at 354.
Nonetheless, despite these clear articulations of the
power of law enforcement officers to seize suspects
5

At the time of the initial encounter, all officers were outside the
fence crossing the driveway and remained there for most of the
encounter. The officers were authorized to seek to interview the
subject of the complaint, to get his side of the story and in doing so
to seek to ensure their safety by demanding he relinquish his
weapon. When he refused, he committed the additional offense of
misdemeanor obstruction of an officer in the presence of those
officers and was subject to further detention for that offense.

15
upon probable cause, the Eleventh Circuit created one
of those “ifs, ands, and buts” rules the Court rejected
in New York v. Belton when it stripped these officers of
their qualified immunity. 453 U.S. 454, 458 (1981)
(overruled on other grounds by Arizona v. Gant, 556
U.S. 332 (2009)). The Eleventh Circuit erroneously
concluded that qualified immunity did not apply and
ignored this Court’s holding in Pearson v. Callahan,
555 U.S. 223 (2009), that “the protection of qualified
immunity applies regardless of whether the
government official’s error is a mistake of law, a
mistake of fact, or a mistake based on mixed questions
of law and fact.” 555 U.S. at 231.
Finally, this Court held in Kentucky v. King, 563
U.S. 452, 455 (2011),6 that a warrantless entry into an
apartment is appropriate to prevent destruction of
evidence because the officers did nothing wrong that
caused the exigent circumstances there. The same
analysis applies to this matter: Officers observed their
suspect armed and acting erratically while they were
standing outside the fence. He was accused of
threatening violence against lawful hunters. App’x at
3a. All of the conduct of the officers was lawful and
appropriate given that Mr. Turner presented as an
imminent risk of harm to himself or others. Mr.
Turner’s conduct escalated the situation and justified
the seizure and lawful demand that he disarm.
The breadth of this Court’s precedent refutes the
conclusion by the Eleventh Circuit that these officers
did not act reasonably based on clearly established law.
6

Again, this case was neither cited nor discussed by the Circuit
Court’s opinion.

16
This Court should summarily reverse the Eleventh
Circuit for failing to analyze the case under the proper
legal framework.
II. IN THE ALTERNATIVE, THIS COURT SHOULD GRANT
CERTIORARI BECAUSE THE ELEVENTH CIRCUIT’S
DETERMINATION OF “CLEARLY ESTABLISHED”
NINE DAYS AFTER ITS ORIGINAL DECISION
IGNORES THE PRACTICAL REALITIES OF LOCAL
GOVERNMENT LAW ENFORCEMENT
As the Petition highlights, there is a circuit split as
to how much time is required to clearly establish the
law for the purposes of qualified immunity. See
Petition, at 14-21. Indeed, if this incident had occurred
in the Township of Scott, Pennsylvania or in Tulia,
Texas, the Third and Fifth Circuits would have likely
concluded that the law was not clearly established with
only nine days’ notice. See Bryan v. United States, 919
F.3d 356, 363 (3d Cir. 2019); Affiliated Capital Corp. v.
City of Houston, 735 F.2d 1555, 1559 (5th Cir. 1984). In
contrast, law enforcement in Pickens County, Georgia
or Pulaski County, Virginia would have been deemed
on notice of a panel decision issued a mere days before
the incident. See Arebaugh v. Dalton, 730 F.2d 970,
971 (4th Cir. 1984); Craig, 781 F. App’x 888. And for
the hundreds of thousands of local government officials
in the other circuits, it is unclear whether they would
be found liable or not. The state of confusion and
square circuit split on this issue warrants this Court’s
intervention as do significant policy concerns
associated with the Eleventh Circuit’s ruling.
In a perfect world, a Fourth Amendment
pronouncement from a United States Circuit Court of

17
Appeals would be “clearly established” when issued,
and practiced immediately by officers on the front line.
But that utopia ignores a number of realities, including
the mechanisms required to interpret an opinion and
translate it into actionable policies, the logistics
involved in internalizing those policies, and the
resources needed to expedite the process.
First is the question of “clarity” implicit in “clearly
established.” In some cases, it is easy to identify the
clear, bright-line precedential maxim that will dictate
future law enforcement behavior. In many more
instances, however—including in the present
scenario—the facts and circumstances are exceedingly
specific, leading to a highly nuanced opinion. See
Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018)
(explaining “[s]pecificity is especially important in the
Fourth Amendment context, where the Court has
recognized that it is sometimes difficult for an officer to
determine how the relevant legal doctrine, here
excessive force, will apply to the factual situation the
officer confronts.”), quoting Mullinax v. Luna, 136 S.
Ct. 305, 308 (2015). Reviewing these decisions requires
thoughtful and deliberate consideration by a seasoned
legal professional to discern the larger ambit, if any, of
such a holding. That consideration is costly and timeconsuming. It is not at all obvious, for example, that
the Terry-stop in Moore, involving an officer’s
investigation of a disturbance in a parking lot for which
there was no probable cause that a crime was
committed, was sufficiently similar to clearly establish
the law applicable to the facts presented to the officers
in this case, where they did have probable cause to
arrest. Local government attorneys need time to

18
analyze whether Moore’s holding was fact specific to
protect the sanctity of the interior of the home or
whether it would extend to the curtilage. Indeed, as
argued above, Amicus believes the Eleventh Circuit
committed a legal error on this point in determining
that these cases were factually similar, but at the very
least, it should be undisputed that local governments
need sufficient time to review and analyze decisions for
factual similarities.
Second is the question of “establishing” the newly
drawn parameter, once its contours are more clearly
understood. The evolution from legal interpretation by
a local government attorney into specific guidelines to
be followed by a police force is not instantaneous. The
metes and bounds of the reconfigured law must be fully
explained through the chain of command in a process
allowing for ample discussion and comprehension. The
new principle, while carrying the undeniable
provenance of a federal Circuit Court, must
nevertheless compete at the local level with myriad
other legal developments, including state Supreme
Court opinions, changes imposed by federal or state
law, new administrative regulations, and the operation
of local ordinances. The officer is responsible for
understanding and implementing all of these. That
implementation is time-consuming.
Against this reality, the Third Circuit found that a
Circuit Court’s pronouncement, even where based on a
virtually identical fact pattern involving the very same
law enforcement force, could not reasonably become
“clearly established” among uniformed officers in a twoday period:

19
When such a ruling is made, a ruling which
affects the procedures used in border searches,
it is beyond belief that within two days the
government could determine what was
“reasonable suspicion” and what new
policy was required to conform to the
ruling, much less communicate that new
policy to the CBP officers. We can only
conclude that as of September 5, 2008, it was not
clearly established in either the Third Circuit or
the First Circuit that a search of a cruise ship
cabin at the border had to be supported by
reasonable suspicion. Accordingly, under the
circumstances that Officer Ogg confronted, he
did not violate clearly established law by
entering lookouts for the three passengers the
day after we issued our decision in Whitted. He
is entitled to qualified immunity.
Bryan v. United States, 919 F.3d 356, 363 (3d Cir.
2019) (emphasis added).
The Bryan opinion reflects the judicial recognition
of factors which are far more pronounced at the local
level than in the United States Customs and Border
Patrol, a multi-billion-dollar federal law enforcement
behemoth.7 Most of the thousands of municipal law
enforcement departments across the country are
7

The 2020 Fiscal Year proposed budget for United States Customs
and Border Patrol is $18.2 Billion. United States Executive Office
of the President, “Border Security-2020 Budget Fact Sheet,”
https://www.whitehouse.gov/wp-content/uploads/2019/03/FY20Fact-Sheet_Immigration-Border-Security_FINAL.pdf (last
accessed Feb. 20, 2020).

20
located in small communities.8
They are
predominantly modest operations, confined by tight
budgets and challenged to serve ever-expanding needs
of their constituents. The “new normal” facing police
officers includes spikes in terrorism, active shooter
incidents, homelessness, mental illness, opioid
addiction and other infirmities, increasingly
antagonistic public protests and free speech battles and
the like. Pickens County, Georgia, a rural community
of less than 33,000 people, is within that cohort.9
Against this increasingly hostile and complex
environment, the Pickens Sheriff’s Office budget for
“Education and Training” of uniformed officers was
$4,000 for fiscal 2019.10
Facing these realities, local governments and the
municipal lawyers who advise them endeavor in good
faith to integrate developing law into the daily
practices of officers on the front line. But the
preponderance of America’s localities cannot afford
8

The National League of Cities states that more than 90% of
America’s municipal governments serve populations of less than
25,000. “Number of Municipal Governments & Population
Distribution,” https://www.nlc.org/number-of-municipalgovernments-population-distribution (last accessed Feb. 27, 2020).

9

The complexities facing Pickens County law enforcement is
exemplified in a crisis the County faced in October 2019: “Georgia
School District Reverses Its Decision on Transgender Bathroom
Policy After Receiving Death Threats,” Slate.com, Oct. 17, 2019,
https://slate.com/news-and-politics/2019/10/georgia-schooltransgender-bathroom-policy-death-threats.html (last accessed
Feb. 19, 2020).

10

www.pickensgasheriff.com/wp-content/uploads/2020/02/Decem
ber-2019-Financials.pdf (last accessed Feb. 24, 2020).

21
dedicated, full-time legal resources continuously poised
to interpret up-to-the-minute legal developments. It is
not reasonable, whether measured in available hours
or dollars, to mandate that a nuanced decision
transmogrifies, in six business days, into “clearly
established” edict. Such a ruling would require the
expenditure of inordinate sums and the devotion of
hours each day to ensure that personnel immediately
integrate late-breaking legal developments. Even that
outlay, which is wholly unrealistic for the many
thousands of small local governments around the
country, would likely not achieve the timeframes
implicit in the Eleventh Circuit’s ruling in this case.11
A more achievable approach would allow a reasonable,

11

The problem is further exacerbated by ambiguity about what
authority, aside from the Supreme Court, can “establish” the law
for the purposes of qualified immunity. See Carroll v. Carman, 574
U.S. 13, 17 (2014) (assuming without deciding that Circuit
precedent establishes the law for purposes of qualified immunity).
While the Eleventh Circuit has provided more guidance than most
circuit courts on this front, many other circuits utilize nebulous
tests to determine how the law can be established, indicating that
a “robust consensus of authority” can do the job. Compare
Shumpert v. City of Tupelo, 905 F.3d 310, 320 (5th Cir. 2018)
(district courts may rely on “a robust consensus” of other circuit
court precedent to “clearly establish” law for purposes of qualified
immunity) with Martinez v. City of Clovis, 943 F.3d 1260, 1275
(9th Cir. 2019) (clearly established law can be found from
consensus of state courts, district courts, or other circuit courts).
In those circuits, it would seem an impossible task to train law
enforcement as to “clearly established” law, given that virtually
any district court decision could be as construed to form a “robust
consensus of authority.”

22
prompt interval for opinions to be reduced to formal
policy and integrated into practice.12
IMLA and its members wholeheartedly confirm the
primacy of “clearly established” law, particularly where
it emanates from the Supreme Court or a United States
Circuit Court.
We do not seek a bright line
determination as to when “clarity” is “established.”
But we do advocate for a construct incorporating
realistic temporal and fiscal limitations on law
enforcement’s ability to integrate new law. Nine days
is patently insufficient for the Pickens County Sheriff’s
Office to complete that task under the circumstances of
this case. This Court should grant certiorari to resolve
this important question which the circuit courts are
intractably divided on.
CONCLUSION
This Court should grant certiorari and reverse the
Court of Appeals for the Eleventh Circuit. While this
Court is not a court for the correction of errors, the
analytical and material mistakes made by the Circuit
Court here justify the Court returning this matter for
further review. In the alternative, this Court should
grant certiorari to resolve the deep circuit split on the
issue of how much time is required to clearly establish
the law for the purposes of qualified immunity.

12

See, e.g., Seattle Police Department Manual, Title 6-”Arrestssearch and seizure,” available at www.seattle.gov/policemanual/title-6---arrests-search-and-seizure/6180---searches-gener
al (last accessed Feb. 21, 2020).

23
Respectfully submitted, this 2d day of March 2020.
CHARLES W. THOMPSON
AMANDA KELLAR KARRAS
ERICH EISELT
INTERNATIONAL MUNICIPAL
LAWYERS ASSOCIATION
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
akellar@imla.org

CHRISTOPHER D. BALCH
Counsel of Record
BALCH LAW GROUP
830 Glenwood Ave., SE
Suite 510-220
Atlanta, GA 30316
(404) 963-0045
chris@balchlawgroup.com

Counsel for Amicus Curiae

